Supreme Court. U.S.
FILED

SEP 1 0 2020
No.

19-1326

OFFICE OF THE CLERK

In The
Supreme Court of the United States

JERRY FRUIT,
Petitioner

V.

UNITED STATES OF AMERICA
Respondent.

On Petition for Writ of Certiorari
to the United States Court of Appeals
for the Third Circuit

PETITION FOR WRIT OF CERTIORARI

Jerry Fruit, pro se
Federal Prison Camp
P.O. Box 2000
Lewisburg, PA 17837

QUESTION PRESENTED FOR REVIEW

The question presented is:

Whether police may delay an traffic stop, in the
interest of officer safety, absent probable cause, in order
to conduct a search?

i
/

INTERESTED PARTIES

All parties do not appear in the caption of the case on
the cover page. A list of all perties to the proceeding in
the court whose judgment is the subject of this petition is
as follows:

United States v. Garner, 19-1038

ii

TABLE OF CONTENTS

i

QUESTION PRESENTED FOR REVIEW

ii

INTERESTED PARTIES
PETITION FOR A WRIT OF CERTIORARI

1

OPINIONS BELOW

1

STATEMENT OF JURISDICTION

1

CONSTITUTIONAL PROVISION INVOLVED

1

STATEMENT OF THE CASE

2 .

REASONS FOR GRANTING THE WRIT

6

I.

The Third' Circuit's holding conflicts with
Rodriguez v. United States, 135 S.Ct. 1609
(2015) and the decisions of other circuits.
12

CONCLUSION

iii

TABLE OF APPENDICES

PAGE

1a

Precedential Opinion

Sur Petition for Rehearing

19a

Brief for Appellee

20a

i

iv

TABLE OF AUTHORITIES

Federal Cases

P^GE(s)

Florida v. Royer,
460 U.S. 491 (1983)

99,113*12

Pennsylvania v. Mimms,
434 U.S. 106 (1977)

6, 9

Rodriguez v. United States,
135 S.Ct. 1609 (2015) •.

passim

United States v. Acosta,
157 F.3d 9 (1st Cir. 1998)

9

United States v. Clark,
902 F.3d 404 (3d Cir. 201S)

7, 10

United States v. Green,
397 F.3d 173 (3d Cir. 2018)

10

United States v. Rodriguez,
741 F.3d 905 (8th Cir. 2014)

8

United States v. Stewart,
902 F.3d 664 (7th Cir. 2018)

9

Federal Statutes
28 U.S.C. § 1254(1)(2019)

1

28 U.S.C. § 1291

1

v

TABLE OF AUTHORITIES - continued
PAGE(s)

Federal Rules

1

S.CT. 13.3

vi

PETITION FOR A WRIT OF CERTIORARI
Jerry Fruit respectfully petitions this Court for a
writ of certiorari to review the judgment of the United
States Court of Appeals for the Third Circuit.
OPINIONS BELOW
The Third Circuit’s precedential opinion affirming the
the district court's denial of Petitioner's motion to
suppress is attached as Appendix 1a. The ’opiniofiiof*. the
Third Circuit denying a petition for rehearing is attached
as Appendix 19a.
STATEMENT OF JURISDICTION
This Court has jurisdiction under 28 U.S.C. § 1254(1).
The Third Circuit entered its judgment in favor of the
respondent on May 29, 2020, and denied Petitioner's ;>::x
petition for rehearing on July 28, 2020. The petition is
timely under S.Ct. R. 13.3. The Third Circuit had juf! r.cj c»:1
jurisdiction pursuant to 28 U.S.C. § 1291.
(.CONSTITUTIONAL PROVISION INVOLVED
Petitioner's petition for a writ of certiorari'invokes
the Fourth Amendment's right to be free from unreasonable
searches and seizures:
The right of the people to be secure in their persons,
houses, papers, and effects against unresonable

1

r

searches and seizures, shall not be violated, and no
warrants shall issue, but upon probable cause, r-;u r

r1

supported by oath or affirmation, and particularly
describing the place to be searched, and the persons or
things to be seized.

STATEMENT OF THE CASE
On July

2016, Pennsylvania State Trooper, Kent

Ramirez, stopped a car with a New York license plate for
speeding on Interstate 81 near Harrisburg, Pennsylvania.
Prior to the stop, Trooper Ramirez ran the license plate and
learned the car was owned by Enterprise Rent-A-Car, though
it lacked the typical bar code rental stickers.
When Ramirez approached the passenger side of the v
vehicle, he smelled a strong odor of air freshener and
noticed that each vent had an air freshener clipped to it.
Ramirez identified himself, asked for the driver's license,
and explained that the driver was speeding. Because traffic
was noisy, Ramirez asked the driver to exit the vehicle so
they could talk on the side of the road.
The driver, Jerry Fruit, gave Ramirez his driver's
license and rental car agreement. In response to an inquiry
from Ramirez, Fruit said he was traveling from Manhattan to
Hagerstown, Maryland to visit his cousin for about two days.

2

He also identified his passenger, Tykei Garner, as his cousin.
The rental agreement listed Fruit as the authorized driver of
the vehicle, but limited to the state of New York. And the
agreement stated that it covered a rental period of June 11-1
15, so it appeared.!: to have expired twenty days before the
traffic stop. When asked about that discrepancy, Fruit
explained that he was in a car accident, his car had been in
the shop for a month, and the rental agreement was through
his insurance company.
Before he returned to his cruiser to run Fruit's license
and contact Enterprise about the status of Fruit's rental
contract, Trooper Ramirez asked Fruit a series of questions
about his employment, prior traffic tickets, and criminal
history. Trooper Ramirez thereafter asked the passenger
(Garner) to get out of the car so he could question him. As
with Fruit, Ramirez asked Garner questions unrelated to the
traffic stop, including about his criminal history.
Twelve minutes into the traffic stop, Trooper Ramirez
returned to his vehicle to check with Enterprise on the
status of the rental agreement and verify Fruit's and Garner's
driving records and criminal histories. Ramirez learned from
a computer search that neither Fruit nor Garner had any
outstanding warrants, although Fruit was on supervised . .1 .. .
release for a federal crime. He also learned that both men

3

had extensive criminal records, including drug and weapons
crimes. Ramirez then called the Pennsylvania Criminal
Intelligence Center, which reported that both men had been
subjects of high intensity drug trafficking area

v. : f• i-i c

investigations. Finally,Enterprise confirmed that Fruit had
extended the rental agreement beyond the listed expiration
date.
After learning all these things, Trooper Ramirez r?Ec'lvt:
resolved to ask permission to search the vehicle but waited
for backup before doing so. App. at 6a. The backup officer,
Trooper Severin Thierwechter, arrived 37 minutes into the
stop. Trooper Ramirez then asked Fruit if he could search the
car, but Fruit declined. Ramirez then advised Fruit that he
was calling for a K-9 unit and Fruit was not free to leave.
Ramirez called for a K-9 unit , and Trooper John Mearkle
arrived with dog Zigi 17 minutes later - 56 minutes into the
stop. The dog alerted twice at the passenger'side door. The
troopers searched the car themselves and found bags c
containingccocainer:and heroin; in the trunk. So they arrested
Fruit and Garner.
Fruit and Garner were indicted for conspiracy to possess
with intent to distribute heroin and cocaine and possession
with intent to distribute the same. They moved to suppress
the evidence seized during the traffic stop, arguing that i v:.

4

they were seized in violation of their Fourth Amendment
rights because Trooper Ramirez extended the traffic stop
longer than necessary to issue a speeding ticket and lacked
authority to engage in the ensuing criminal investigation.
After an evidentiary hearing, the district court denied
their joint motion to suppress all fruits of the search and
seizure on grounds that prolongation of the stop beyond its
traffic-related mission violated the Fourth Amendment. In
2018, Fruit pleaded guilty to both counts under a plea
agreement preserving his right to appeal the denial of his
motion to suppress. Garner was convicted of both counts by
jury. Garner moved for judgment of acquittal and a new trial
which the district court denied. The court sentenced Fruit
and Garner each to the mandatory minimum of 120 months'
imprisonment with both counts to run concurrently. They
appealed and their cases were consolidated for oral argument
and disposition.
The Third. Circuit affirmed, holding that Trooper Ramirez
had reasonable suspicion to extend the stop before he engaged
in any unrelated investigation. App. at 12a. The Court also
found that Ramirez called for backup for his safety, which
the Court held is consistent with the mission of the traffic
stop. App. at 13a.

The Third Circuit denied Fruit's petition

for rehearing or rehearing en banc. App. at 19a.

5

REASON FOR GRANTING THE WRIT
The Third Circuit's decision in this case conflict with
the decision of this Court and other^court of appeals. See
S.Ct. R. 10(a)-(c); Pennsylvania v. Mimms, 434 U.S. 106, 107
(1977)("Because we disagree with this conclusion, we grant
the Commonwealth's petition for certiorari and reverse the
judgment of the Supreme Court of Pennsylvania."). The Third
Circuit failed to appreciate the clear illegality of a tenfifteen minute delay because of its mistaken premise, from a
previous case in the Third Circuit, that tasks tied to

f■ c...

officer safety are also part of a stop's mission under
Rodriguez v. United States, 133 S.Ct. 1609, 1616 (2015), so
long as its done to protect officers. Relying on this logic,
the Third Circuit concluded that Trooper Ramirez request for
backup in this case was consistent with the mission of his
traffic stop. App. at 13a.
I.

The Third Circuit's holding conflicts with Rodriguez and
the decisions of other circuits.
The Third Circuit betrayed a fundamental misunderstanding

of Rodriguez in holding that Trooper Ramirez's request for
backup - for officer safety - and the attendant delay is
consistent with the mission of any traffic stop. App. at 13a.

6

In Rodriguez, this Court made clear that an officer’s
"mission" during a traffic stop is "to address the traffic
violation that warranted the stop....-and attend to related
safety concerns." 135 S.Ct. at 1614 ^citations omitted). This
Court acknowledged that "traffic stops are 'especially

::

fraught with danger to police officers’ ... so an officer may
need to take certain negligibly burdensome precautions in
order to complete his mission safely." Id. at 1616. ."On-scene
investigation into other crimes," the Court said, "detours
from that mission" as do "safety precautions taken in order
to facilitate such detours." Id.
Here, in a precedential decision, the Third Circuit
enunciates a per se rule that tasks tied to officer safety
is consistent with the mission of "any" traffic stop. In
advancing this rule, the Third Circuit rely on United States
v. Clark, 902 F.3d 404, 410 (3d Cir. 2018). App. at 13a.
According to Clark, "tasks tied to officer safety are also
part of the stop's mission when done out of an interest to
protect officers." Id. (citing Rodriguez, 135 S.Ct. at 1616).
This rule is unsupported dictum and conflicts with this
Court's decision in Rodriguez.

7

For example, in Rodriguez, the officer who initiated the
stop already had a dog in his vehicle. Id. at 1612. For his
safety, however, he waited for backup to arrive before
■ conducting the dog sniff. Id. at 1613, 1618; see also United
States v. Rodriguez, 741 F.3d 905 907 (8th Cir. 2014)
(explaining that he did so for his safety because there were
two persons in Rodriguez's vehicle). Despite the fact that
the officer waited for backup for his safety - officer safety
- this Court held that, absent reasonable suspicion, police
extension of a traffic stop in order to conduct a dog sniff
violates the Constitution's shield against unreasonable
seizures. Id. at 1616-17. Accordingly, any suggestion that a
delay for backup in the interest of officer safety is
consistent with the mission of "any" traffic stop would
contravene this Court's decision in Rodriguez.
One necessary corollary to Rodriguez - which the Third
Circuit failed to appreciate - is that "the government's
officer safety interest stems from the mission of the stop
itself" and that courts must determine whether the officer's
safety precautions where taken to further the legitimate
purpose of the stop. Id. at 1616. The problem with the dog
sniff in Rodriguez was that it was a measure aimed at
"detecting evidence of ordinary criminal wrongdoing" and "not

8

fairly characterized as part of the officer's traffic
mission." Id. Pnd efforts to "detect crime, in general or drug
trafficking in particular" are "different in kind" from
interests in highway and officer safety. Id.
Other courts of appeals that have addressed Rodriguez or
Pennsylvania v. Mimms, 434 U.S. 106 (1977), which it relied,
have also reached the conclusion that tasks tied to officer
safety may not be part of a stop's mission. See United States
v. Stewart, 902 F.3d 664, 674 (7th Cir. 2013)( suggesting
that 75 seconds used to call for backup might unlawfully
prolong the stop, but the record was inadequate to determine
if the officer's purpose was for both officer safety and a
dog sniff); United States v. Acosta, 157 F.3d 9, 20 (1st Cir.
1993) ("[t]he government has failed to demonstrate that
Acosta's transportation to the customs enclosure area was
itself within the limits of a Terry stop. Plainly, therefore,
the need to facilitate that very-detention cannot provide a
valid justification for the use of handcuffs") (citing
Florida v. Royer, 46O U.S. 491, 505 0933) (in turn citing
Mimms, 434 U.S. at 109-111)).

9

The Third Circuit has now done both. Compare United
States v. Green, S97 F.3d 173 182 (3d Cir. 2018) ("Rodriguez
would seem to suggest that the validity of Volk waiting for
backup turns on his motivation for making the request-traffic-based or otherwise...") with Clark, 902 F.3d at 410
("[t]asks tied to officer safety are also part of the stop’s
mission when done out of an interest to protect officers.")
and Appendix 13a ("Ramirez explained that he called for
backup for officer safety which is consistent with the
mission of any traffic stop."). Assessing the tolerable
duration of a stop, soley on the officer's safety, as the
Third Circuit did here, would effectively allow polive to
leverage the safety rationale into a justification for
"detectfing] crime in general or drug trafficking in
particular" clearly rejected in Rodriguez. Rodriguez, 135
S.Ct. at 1616.
In this case, Trooper Ramirez called for backup after
running Fruit and Garner's records and Trooper Thierwechter
arrived within ten or fifteen minutes. App. at 6 and 14. On
appeal Fruit argued that Ramirez exercised a lack of
diligence in his stop, rendering it tantamount to an arrest
requiring probable cause. Id. at 13. He contended that
Ramirez should not have waited for another trooper to arrive.
Id.

10

The Government, on the other hand, argued that "£b]y the
time Tpr. Ramirez actually expanded his investigation by
requesting backup to search the vehicle, there can be no
question reasonable suspicion was firmly established" id. at
40a - 41a, and that "it was reasonable and undoubtedly

■ r -

prudent for Tpr. Ramirez to request backup before conducting
a search in the interest of officer safety." Id. at 59a- 60a.
But, like the dog sniff in Rodriguez, a search detours
from a traffic-stop mission. Under Rodriguez, "[s]o too do
safety precautions taken in order to facilitate such
detour[]." 135 S.Ct. at 1616. 4nd even though the Third
Circuit"found that Ramirez established reasonable suspicion
during the first few minutes of the stop, App. at 12a, "[i]h
the name of investigating a person who is no more than
suspected of criminal activity, the police may not carry out
a full search of the person or of his automobile or other
effects." See Royer;-460 U;S; :.'at^'499"." -Thus, Ramirez delay to
await backup still impermissibly extended the detention
because the purpose for such precaution arose from his effort
to conduct a full search exceeding the bounds of an :.r. ’
investigative detention. See Rodriguez, 135 S.Ct. at 1614
(explaining that in both Terry and traffic stops, "the
tolerable duration of police inquiries ... is determined by t

11

the seizure's mission," and "may 'last no longer than is
necessary to effectuate that purpose 1 it ) (quoting Royer, 46O
U.S. at 500).

CONCLUSION
For the reasons above, the petition for a writ of
certiorari should be granted.

Respectfully submitted

Dated: £0
6?rry <£ruit #53517-054
(ISP Lewisburg
P.0. box 1000
Lewisburg, PA 17837

12

